            EVALUATION REPORT


                      Office of the Inspector General
                   NRC Safety Culture and Climate Survey
                            Executive Summary

                       OIG-06-A-08 February 10, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                         February 10, 2006




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations

                           Jesse L. Funches
                           Chief Financial Officer



FROM:                      Stephen D. Dingbaum/RA/
                           Assistant Inspector General for Audits


SUBJECT:                   2005 NRC SAFETY CULTURE AND CLIMATE
                           SURVEY (OIG-06-A-08)


The attached report presents the results of the 2005 NRC Safety Culture and
Climate Survey. Briefings were held in November and December of 2005 on the
survey results. Additionally, survey results were presented to all employees at a
briefing held January 11, 2006.

We appreciate the courtesies and cooperation extended to us by members of
your staff during the survey. If you have any questions or comments about this
report, please feel free to contact me at 301-415-5915, or Steven Zane at
301-415-5912.

Attachment As stated.
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
   Office of the Inspector General
NRC Safety Culture and Climate Survey
        Executive Summary

              February 2006




   Prepared by International Survey Research
              303 East Ohio Street
             Chicago, Illinois 60611
            Telephone: 312.828.9725
               Fax: 312.828.9742
               www.isrinsight.com
                                                                        Office of the Inspector General
                                        NRC Safety Culture and Climate Survey Executive Summary 2005

                                                 TABLE OF CONTENTS
                                                                                                                                      Page

Survey Design ............................................................................................................................... 4
Survey Results in Brief.................................................................................................................. 4
Interview Findings.......................................................................................................................... 6
     Strengths of NRC’s Safety Culture ........................................................................................ 8
     Opportunities for Improvement for NRC’s Safety Culture ................................................... 8
Survey Development..................................................................................................................... 9
Survey Categories ........................................................................................................................ 9
Survey Administration.................................................................................................................12
     Participation Rate .................................................................................................................12
Overall Category Scores ............................................................................................................13
     NRC Overall 2005 (N=2,269)...............................................................................................13
Comparison of NRC with U.S. National Norm .........................................................................14
     NRC Overall vs. U.S. National Norm (N=154,443) ............................................................14
Comparison of NRC with U.S. Research & Development Norm ...........................................15
     NRC Overall vs. U.S. Research & Development Norm (N=9,085) ..................................16
NRC Overall 2005 vs. NRC 2002 (N=1,525) ..........................................................................17
NRC Overall 2005 vs. NRC 1998 (N=1,696) ...........................................................................18
Internal Comparisons ..................................................................................................................19
     Office Comparisons ..............................................................................................................19
     Office Historical Comparisons.............................................................................................22
     Office/Region Historicals (1 of 2) ........................................................................................23
     Office/Region Historicals (2 of 2) ........................................................................................24
     Grade Level Comparisons ...................................................................................................25
     Category Results by Grade Level........................................................................................25
     Category Results by Job Category .....................................................................................26
     Job Category Comparisons.................................................................................................27
     Category Results by Job Function.......................................................................................27
     Job Function Comparisons ..................................................................................................28



                                                                                                                                   Page 2
                                                                        Office of the Inspector General
                                        NRC Safety Culture and Climate Survey Executive Summary 2005

                                     TABLE OF CONTENTS (Continued)

                                                                                                                                       Page

     Length of Service Comparisons ..........................................................................................28
     Category Results by Length of Service...............................................................................29
Key Driver Analysis.....................................................................................................................30
     Engagement: “Think” Items ..................................................................................................30
     Engagement: “Feel” Items....................................................................................................31
     Engagement: “Act Items”......................................................................................................32
     Key Drivers of Engagement.................................................................................................33
     Key Driver Items Compared to Norms................................................................................35
Conclusion ...................................................................................................................................36
     Key Strengths to Maintain ....................................................................................................37
     Key Opportunities for Improvement.....................................................................................38

Appendix......................................................................................................................................39
  Appendix A: Definition for Risk-Informed Regulation.......................................................40




All Normative Comparisons
© 2006, by ISR (a trade name of International Survey Research LLC)
All Rights Reserved


                                                                                                                                    Page 3
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

                                             SURVEY DESIGN

The Nuclear Regulatory Commission (NRC), Office of the Inspector General (OIG) engaged
International Survey Research LLC (ISR) to conduct a 2005 Safety Culture and Climate Survey
of all Agency employees. The study consisted of four distinct areas: a review of the existing
research on safety culture and climate, evaluation of the 2002 Safety Culture and Climate
Survey results, a qualitative design phase where a random sample of NRC employees and
managers were interviewed, and a quantitative component consisting of a survey
administered to all NRC employees. The interviews and ISR’s review of the 2002 Safety
Culture and Climate Survey results served as the basis for designing the 2005 questionnaire.
The questions that comprised the 2005 survey included selected items from ISR’s normative
database as well as tailored items to address the unique topic of NRC’s safety culture and
climate. The 2005 study, as a third iteration survey, provides the NRC with a distinct
advantage: a comparison of the 2005 results with historical items (both ISR norm-based and
tailored) used in 1998 and 2002 survey administrations.

After a brief review of the survey results and interview findings, this executive summary will
highlight the quantitative findings of NRC’s survey results. First, the findings will emphasize the
overall results, looking at specific areas of strength and opportunities for improvement for
NRC. Category-level results will be compared with ISR’s U.S. Research and Development
Norm, U.S. National Norm, and the 1998 and 2002 NRC Safety Culture and Climate Survey
Results. The summary will then report internal comparisons for office and regions, job
functions, job categories, job grades and years of service. Finally, a summary is provided that
highlights the key findings of the Safety Culture and Climate Survey.

                                      SURVEY RESULTS IN BRIEF
The OIG's NRC Safety Culture and Climate Survey was administered from September 12
through October 7, 2005. All NRC employees and managers were eligible to participate. Of
the 3,206 employees asked to participate, 2 ,269 completed valid surveys, for an overall return
rate of 70%. This return is significantly higher than previous survey administrations and is
more than sufficient to provide a reliable and valid measure of the current attitudes and
perceptions of NRC employees and managers.

When compared to the U.S. National Norm, the overall category profile for the NRC is
statistically more favorable in 12 of the 16 categories. Similarly, when comparing the NRC
survey scores with the U. S. Research and Development Norm, 14 categories score
significantly above the norm. The most favorable difference is NRC Mission and Strategic
Plan, which is 28* points above the norm. As the score demonstrates in this comparison,
NRC employees' opinions are generally more favorable than what would typically be
observed among U.S. R& D populations.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference         Page 4
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005


The historical comparison of results from 2002 to 2005 looks quite positive, with 16 of 18
categories statistically more favorable than the 2002 NRC results. Communication, which was
a high priority for the NRC since the last survey in 2002, is now the highest scoring category in
this comparison, by 13* points. The NRC Mission and Strategic Plan also experienced a
double-digit improvement of 11* points. This score suggest that the new NRC Strategic Plan
initiative was well received.

It is rare in ISR's experience that scores improve to this degree between survey iterations.
Efforts to follow-up on the survey results from 2002 appear to be successful and should be
implemented once again in 2005.

Compared to 1998, the NRC has improved in 17 categories, from Organizational Change
which is statistically more favorable in 2005 vs. 1998 by 21* points, to Differing Professional
Opinions (DPO) Program, which has improved by 4* points.

Examining the NRC data in terms of office distinctions allows an interesting picture to emerge.
 In the comparison of category scores by Office/Division, Region I, Region II and Region IV are
statistically more favorable than the NRC overall in several categories, including Clarity of
Responsibilities, Management Leadership and Regulatory Effectiveness Process and
Initiatives. In contrast, the Office of Nuclear Regulatory Research (RES), Office of Information
Services (OIS), Office of the Chief Financial Officer (OCFO) and the Office of Nuclear Security
and Incident Response (NSIR) have a number of categories that are statistically less favorable
than the NRC overall, with Research statistically lower in 14 of the 19 categories. While these
offices are less favorable than the NRC overall scores, keep in mind that NRC's overall scores
were higher than the U.S. National and U.S Research and Development Norms in most
categories.

Employees were also requested to identify their Job Category in the survey. Respondents
could choose from senior management, middle management, line management, and non-
supervisory classifications. Differences exist between how higher levels of management
responded to the survey questions versus responses from line management and non-
supervisory levels. This pattern is particularly common among government and private sector
organizations alike. The senior management and middle management deviate by double-digit
differences to the NRC Overall scores. While it is expected to see single-digit differences for
executives and high levels of management, it is unusual to see this large a significant
difference to the remaining employee population.

When comparing Job Function categories, there is very little difference. However, when
responding to questions regarding sacrificing the quality of their work to cut cost, meet budget
constraints or achieve a schedule or deadline, Administrative Support staff responded
unfavorably to these questions. These unfavorable responses highlight conditions that impact
a quality focus for this population.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference        Page 5
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005


In summary, the 2005 NRC Safety Culture and Climate Survey results are statistically more
favorable in 12 of 16 categories compared to the U.S. National Norm and in 14 of 16
categories compared to the U.S. Research and Development Norm. No categories in the
2005 NRC Survey results compared to either of the norms are statistically less favorable.

Comparing the 2005 to the 2002 NRC results, 16 of 18 categories have statistically improved,
from 13* points in Communication to 3* points in Clarity of Responsibilities. The remaining two
of 18 categories have not experienced a statistically significant change from the 2002 results.

Should the NRC decide to conduct another Safety Culture and Climate Survey in the future, it
is ISR’s recommendation they include a comparison to the U.S. High Performance Norm. This
norm is comprised of organizations that have exceptional financial and employee opinion
survey results. While it is understood the NRC is a “not for profit” government organization, the
companies in the norm are often cited for being extremely well managed. This comparison
would provide the NRC with a continuous development opportunity as the scores in the norm
are significantly higher than both the U.S. National and Research and Development Norms.

The following pages in the Executive Summary will further explain the results in more detail.

                                          INTERVIEW FINDINGS

The qualitative design component of the OIG’s NRC Safety Culture and Climate survey
included group and one-on-one interviews with a cross-section of Nuclear Regulatory
Commission employees and managers. ISR conducted these interviews on May 23, 2005 and
June 9, 2005. A sample of Administrative/Clericals, Non-Engineering Specialists, Engineers,
Inspectors, Managers, Branch Chiefs, Directors and Executive Directors, and Commissioners
were interviewed onsite and by telephone as part of the qualitative assessment. In total, 166
employees and managers participated in the interview phase of the project.

Interviewees were selected at random from Headquarters - Rockville, MD (98), Region II –
Atlanta, GA (35) and, Region I – King of Prussia, PA (33). The following illustrates the
composition of the onsite and telephone interviews. To ensure Senior Resident and Resident
Inspectors were represented in the interviews, ISR conducted telephone interviews with
inspectors assigned to commercial nuclear sites in Region 1 and Region II.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference       Page 6
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005


           REGIONS                                      NUMBER OF EMPLOYEES

           Region I employees interviewed                                             4
           Region I employees in focus groups                                        29
           Region II employees interviewed                                            5
           Region II employees in focus groups                                       30
           Total - Regions                                                           68


           HEADQUARTERS                                 NUMBER OF EMPLOYEES

           Total employees interviewed                                               21
           Total employees—focus groups                                              77
           Total - Headquarters                                                      98

           Total - NRC                                                              166

Employee focus groups and one-on-one interviews address a number of topics including
supervision, leadership, the NRC Strategic Plan, sufficient staffing, tools that individuals use
to complete their jobs, intern and rotational programs for employee career development, etc.
Major themes that emerged from the interviews follow on the next page.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference         Page 7
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

Strengths of NRC’s Safety Culture

1. The NRC is viewed by the employees interviewed and in focus groups as an Agency that is
   vital to our country’s safety and security. Its image, while not understood or appreciated by
   all the American public, is very good when compared with other US Government agencies.


2. Many employees interviewed described their supervisors as being very communicative,
   exceptionally interested in their employees’ well-being, supportive of training, and
   modeling the behaviors of effective leaders at the NRC. However, as evidenced in the
   “Opportunities for Improvement” section below, this is not true for all supervisors.

Opportunities for Improvement for NRC’s Safety Culture

1. While communication efforts have improved since the 2002 survey, significant effort is still
   needed to ensure that employees are informed about areas that are critical from an NRC
   perspective. Employees feel that there is more content available now than in 2002 to keep
   them informed of NRC-wide issues. However, employees feel that more communication
   vehicles do not necessarily translate into better Agency-wide communication.

2. Employees see a need for better communication at the local level, stressing the need for
   Branches and Sections to be kept well-informed about Office or Region issues. Often,
   employees feel they are not kept up to speed on initiatives between Offices or within an
   Office that could impact the efficiency with which they accomplish their work.

3. Significant reservations still exist about the Differing Professional Opinions (DPO)
   program. Some employees feel comfortable raising an issue and going through the DPO
   process. However, a number of employees do not feel comfortable doing so, out of fear of
   retaliation.

4. The quality of supervisors across the NRC varies widely. The more ineffective supervisors
   across the NRC are poor communicators, rarely keeping their employees informed about
   matters affecting them. In addition, employees with poor supervisors do not receive the
   training or career development opportunities they desire. (The qualities of effective
   supervisors are addressed in Point 2 of the Strengths of the NRC’s Safety Culture above.)

5. While employees feel they have a number of training opportunities available to them, they
   are often not able to take advantage of them. In some cases, this is due to a reduced
   travel budget, which limits the possibilities of receiving quality training at an offsite location.
    In other cases, workload prohibits employees from engaging in training.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference            Page 8
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

6. Management of the NRC is visible to some employees, but not to most. Throughout our
   discussions—especially the focus groups—employees expressed a desire to have more
   contact with the senior leaders of the NRC.

7. Staffing levels and the resulting workload issues are a significant cause for concern among
   employees. Part of this appears to be a lack of prioritization, while some of it appears to
   be a lack of transferring knowledge when key employees retire.

                                        SURVEY DEVELOPMENT

Based on ISR’s research into safety culture, factor analysis and qualitative review of the 2002
and 1998 survey questionnaire, the qualitative interview findings, and ISR’s experience in
other government and private sector organizations, a pretest version of the survey instrument
was developed and tested with a broad cross-section of NRC employees. The pretest survey
contained both ISR normed and NRC tailored questions. Survey pretest sessions were
conducted at the NRC Headquarters - Rockville, MD, with additional input from NRC
employees across regions via teleconference.

The survey questions were grouped into 19 categories representing the major topics of the
NRC’s Safety Culture and Climate. A list of the categories, along with a brief description of the
items each category contains, is provided on the following pages. For each category, the
average favorable response (percentage of employees responding favorably to a given set of
questions) was calculated. Please refer to page 13 of this report for the percent favorable
response for each of the survey categories. Comparisons of the 2005 survey results to the
1998 and 2002 NRC historical results, ISR's U.S. Research and Development Norm and U.S.
National Norm, begin on page 14.

                                         SURVEY CATEGORIES

1.    Clarity of Responsibilities: Assesses clarity of job responsibilities, duplication across
      work units, and task prioritization.

2.    Management Leadership: Probes employees' views of the various management levels
      within the NRC including management style, management direction, confidence in
      management decisions, and the amount of effort by management to implement
      "risk-informed methodologies.” For further details on risk-informed regulation, please
      see Appendix A for a detailed definition.

3.    Supervision: Examines employee perceptions of their immediate supervisor's technical
      competency, level of authority, availability, communication skills, people management
      and team-building skills, attention to staffing needs, and competency for understanding
      future needs.



Where indicated, an asterisk (*) indicates a Statistically Significant Difference       Page 9
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

4.    Working Relationships: Measures the level of cooperation, respect, and teamwork
      among employees, work units, divisions, office/regions, and headquarters.

5.    Empowerment: Assesses the amount of authority employees have to do their job, the
      trust they receive from management, openness to discuss differing opinions, ability to
      openly and confidently raise issues, and whether NRC's climate allows one to be
      innovative.

6.    Communication: Evaluates the availability of information about matters affecting the
      agency, and information employees need to do their job. It also assesses the degree of
      openness that employees have with speaking up in the NRC. Measures employees'
      understanding of the goals and objectives of their work unit, division, office/region, and
      NRC as a whole and the NRC Strategic Plan. In addition, employees’ awareness of
      NRC's plans, performance, a nd mission are evaluated. This category also measures the
      effectiveness of various internal communication vehicles.

7.    Workload and Support: Evaluates the amount of staff to handle the workload, the
      amount of stress employees experience on the job, the prioritization, and resource
      allocation to improve efficiency of work such as the dissemination of information.

8.    Training and Development: Assesses availability and quality of training, knowledge of
      safety concepts, recruitment and retention of talented employees, the development of
      employees to their full potential, and perceptions of career progression within the NRC.
      Also provides employees the opportunity to identify barriers to attending NRC sponsored
      and other public/privately offered training courses.

9.    Performance Management: Explores NRC’s recognition for quality of performance
      and leniency for poor performance. Additionally, the breadth, utility, and understanding of
      performance reviews are investigated.

10. Job Satisfaction: Examines employees' satisfaction with their job being worthwhile,
    important to the NRC, providing a sense of accomplishment, and allowing adequate use
    of their abilities.

11. Employee Engagement: Probes employees’ willingness to recommend the NRC as a
    good place to work, whether they feel they are a part of the agency, their pride in working
    for the NRC and their belief in NRC goals, objectives and values. Measures employee
    intent to leave for both retirement and non-retirement related reasons.

12. NRC Mission a nd Strategic Plan: Assesses the clarity of NRC's mission and strategic
    plan and whether employees believe management decisions are consistent with the
    mission and strategic plan. Assesses the use of the strategic plan in assisting
    employees in prioritizing their work and formulating budgets.


Where indicated, an asterisk (*) indicates a Statistically Significant Difference      Page 10
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

13. NRC Image: Examines employee perceptions of whether NRC is highly regarded by its
    various stakeholders, NRC's effectiveness in communicating to the general public, and
    whether all employees are held to the same standards of ethical behavior.

14. Organizational Change: Evaluates employees' views on the future of the industry and
    concerns about changes in management and regulatory methodology. Employees are
    also asked to rate how the following have changed from the past and will change in the
    future: the way people are managed day to day, communication, the quality of work
    produced, productivity, the public image of the agency, and NRC as a whole.

15. Continuous Improvement Commitment: Assesses employee views on NRC's
    commitment to public safety, and whether employees are encouraged to communicate
    ideas to improve safety/regulations/operations. Measure the NRC’s effort to capture and
    record the collective experience of retiring employees for future use in the Agency.

16. Quality Focus: Explores employee views on the quality of NRC’s (divisions’) work, the
    relative balance between quality of work versus quantity of work, perceived sacrifice of
    quality to meet budget, deadline or political constraints.

17. Regulatory Effectiveness Process/Initiatives: Investigates the perceived linkage
    between increased focus on risk-based and performance-based regulation, and
    improvement of regulatory effectiveness. Employees are asked to report the relative
    importance of the risk-based and performance-based regulation initiatives, and how
    layers of management and supervisors perceive the importance of these initiatives.
    Opinions are also solicited regarding the differing professional opinions process and
    risk-informed, performance-based regulations.

18. Diversity and Inclusion: Includes questions addressing the supervisor’s ability to work
    with people who are different from him or her and NRC management’s recognition and
    respect for the value of human differences.

19. Differing Professional Opinions (DPO) Program: This category probes the degree
    to which employees are satisfied with the Differing Professional Opinions Program and
    the belief that submitting a DPO would not have a negative impact on the employee’s
    career. Questions in the category also address the Non-concurrence Program, The
    Employee Concerns Program and the NRC Senior Management and Commission
    Open-Door Policy.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference    Page 11
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

                                       SURVEY ADMINISTRATION

The OIG’s NRC Safety Culture and Climate Survey was administered to all employees and
managers from September 12 through October 7, 2005. Of the 3,206 employees asked to
participate, 2,269 completed valid surveys, for an overall return rate of 70%. This return is
significantly higher than previous survey administrations and is more than sufficient to provide
a reliable and valid measure of the current attitudes and perceptions of NRC employees and
managers.




  Participation Rate


              Administration: September 12 – October 7, 2005

                                                                            Return    Error
                                 Outgoing              Returned
                                                                             Rate    Margin


       NRC 2005                     3,206                 2,269               70%    +/- 1.1%


       NRC 2002                     2,868                 1,525               53%    +/- 1.7%


       NRC 1998                     3,013                 1,696               56%    +/- 1.6%



                                        ISR Global Return Rate is 72%




Where indicated, an asterisk (*) indicates a Statistically Significant Difference        Page 12
                                                                    Office of the Inspector General
                                    NRC Safety Culture and Climate Survey Executive Summary 2005

                                            OVERALL CATEGORY SCORES

The average favorable response score for each category (percentage of employees
responding favorably to a given set of questions) was calculated and is provided below.
Eighteen of the 19 categories demonstrate majority favorable scores (defined as greater than
50% favorable responses), with the most favorable being Job Satisfaction at 84% favorable.

The category scores range between 46% favorable to 84% favorable, with Job Satisfaction at
84%, Clarity of Responsibilities 80%, Diversity and Inclusion 79%, Engagement 78%,
Working Relationship 76%, Supervision 75% and Communication at 73% all being
characterized by employees as most favorable, with scores above 70% or better. The
remaining categories range from Workload and Support 66% to Performance Management
46% as the lowest-scoring category. In reviewing “raw” category scores, caution should be
exercised in the absence of historical or external benchmarks. The favorability of many
questions in the general U.S. population tends to be lower than one might expect.


  NRC Overall 2005 (N= 2,269)

                                                                             Favorable Scores
                    Job Satisfaction                                                                             84

                    Clarity of Responsibilities                                                             80

                    Diversity & Inclusion                                                                   79

                    Engagement                                                                             78

                    Working Relationships                                                              76

                    Supervision                                                                        75

                    Communication                                                                     73

                    Workload and Support                                                         66

                    Organizational Change                                                        66

                    Continuous Improvement Commitment                                            66

                    NRC Image                                                                   65

                    Empowerment                                                             62

                    NRC Mission & Strategic Plan                                           61

                    Management Leadership                                                  60

                    Training and Development                                              59

                    Regulatory Effectiveness Process/Initiatives                      56

                    Differing Professional Opinions [DPO] Program                     56

                    Quality Focus                                                    54

                    Performance Management                                      46


                                                                    0   25           50                    75          100




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                     Page 13
                                                                   Office of the Inspector General
                                   NRC Safety Culture and Climate Survey Executive Summary 2005



                           COMPARISON OF NRC WITH THE U.S. NATIONAL NORM

An ISR norm is a weighted sample of employee responses categorized by nation, industry,
function, or performance. The first benchmark NRC is compared with is the U.S. National
Norm. This norm is comprised of companies representing a broad spectrum of industries
across the United States and has been updated in the last 12 months. The norm includes
154,443 cases or surveys from individual respondents. Employees in the norm are Hourly,
Salaried, Exempt and Non-Exempt up to and including Executives. Companies in the norm
are weighted to ensure proper proportionality.


  NRC Overall vs. U.S. National Norm (N=154,443)


                                                                  Favorable Scores                                 Differences From Benchmark

   Communication                                                                             79                                                        8

   Engagement                                                                                    81                                                7

   NRC Mission & Strategic Plan                                                                  81                                                7

   Workload and Support                                                                66                                                          7

   Training and Development                                                        64                                                              7

   Clarity of Responsibilities                                                                    84                                               6

   Working Relationships                                                                    76                                                     6

   Diversity & Inclusion                                                                     79                                                4

   Supervision                                                                               78                                                4

   Management Leadership                                                          61                                                           4

   Quality Focus                                                             56                                                            3

   Job Satisfaction                                                                               84                                       2

   Empowerment                                                                    62                                                   1

   Performance Management                                               50                                                             1

   Continuous Improvement Commitment                                                        76                                         0

   NRC Image                                                                       64                                         -1


                                            0              25             50                75            100 -20       -10        0                   10   20
                                                                             Colored Difference Bars indicate a statistically significant difference


                                         Colored Difference Bars indicate a statistically significant difference




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                          Page 14
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

The overall category profile for the NRC is generally above the U.S. National Norm, as
illustrated in the graphic. The norm score for a category is represented by the center line in the
graph. The NRC is statistically more favorable in 12 categories of 16 categories represented
by the green bars, better than the norm in 2 categories (a bar to the right of the center line but
absent of color), equal to the norm in 1 category (Continuous Improvement Commitment) and
less favorable than norm in 1 category (NRC Image), although this difference is not statistically
significant.

Whenever a percent favorable or unfavorable response between two groups is displayed, a
statistical test is conducted to determine how confident we can be about whether the
difference in scores represents a “real” difference in opinion or is it more likely the difference
was caused by random chance. A statistically significant difference is one that is large
enough, given the size of the groups being compared, to be unlikely to be caused by chance.
Statistically significant differences are therefore thought to be indicators of real difference
between the two groups being compared. A statistically significant difference indicates there
is less than a 5% chance the difference occurs randomly.

The previous graphic does not show results for Organizational Change, Regulatory
Effectiveness Processes/Initiatives and the Differing Professional Opinions Program
Categories because they are categories containing unique tailored questions specific to the
NRC and do not have U.S. National Norm equivalent questions.

        COMPARISON OF NRC WITH U.S. RESEARCH AND DEVELOPMENT NORM

The U.S. Research and Development Norm is a representative sample of the U.S. research
and development workforce weighted according to Bureau of Labor Statistics data. A
representative sample of organizations comprising this norm would include Applied Materials,
Merck, Phillips Electronics, and Chevron Corporation. Currently, the U.S. Research and
Development Norm includes over 9,000 respondents from R&D functions. When comparing
the NRC survey scores with the U.S. Research and Development Norm, 14 categories score
significantly above the norm, and Diversity and Inclusion -2 points below the norm. Continuous
Improvement Commitment is equal to the norm. The most favorable difference is NRC Mission
and Strategic Plan which is 28* points above norm. As the scores demonstrate in this
comparison, NRC employee opinions are generally more favorable than what would typically
be observed among U.S. R&D populations.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference       Page 15
                                                                    Office of the Inspector General
                                    NRC Safety Culture and Climate Survey Executive Summary 2005


  NRC Overall vs.
  U.S. Research & Development Norm (N=9,085)

                                                                    Favorable Scores                                Differences From Benchmark
     NRC Mission & Strategic Plan                                                                  81                                                      28
     Training and Development                                                        65                                                               16

     Engagement                                                                                    80                                                13

     Management Leadership                                                          61                                                               13

     Communication                                                                             79                                                    12

     NRC Image                                                                           66                                                          12

     Clarity of Responsibilities                                                                        84                                           11

     Job Satisfaction                                                                                   84                                       9

     Workload and Support                                                                67                                                      8

     Performance Management                                              48                                                                  7

     Working Relationships                                                                         81                                        5

     Quality Focus                                                             56                                                            5

     Supervision                                                                              77                                         4

     Empowerment                                                                    62                                                   4

     Continuous Improvement Commitment                                                        76                                         1

     Diversity & Inclusion                                                                     79                               -2


                                              0              25               50               75            100 -40     -20         0                20        40
                                                                               Colored Difference Bars indicate a statistically significant difference



                                          Colored Difference Bars indicate a statistically significant difference




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                        Page 16
                                                                         Office of the Inspector General
                                         NRC Safety Culture and Climate Survey Executive Summary 2005



            COMPARISON OF NRC 2005 RESULTS WITH THE NRC 2002 RESULTS


  NRC Overall 2005 vs. NRC 2002 (N= 1,525)

                                                                                Favorable Scores                               Differences From Benchmark

   Communication                                                                                         79                                                             13

   NRC Mission & Strategic Plan                                                                              81                                                        11

   Engagement                                                                                                80                                                    9

   Continuous Improvement Commitment                                                                    76                                                         9

   Training and Development                                                                        66                                                              9

   NRC Image                                                                                      65                                                               9

   Empowerment                                                                                62                                                                   9

   Management Leadership                                                                     59                                                                8

   Supervision                                                                                          75                                                     7

   Workload and Support                                                                            66                                                          7

   Job Satisfaction                                                                                               84                                       6

   Working Relationships                                                                                76                                                 6

   Organizational Change                                                                           66                                                      5

   Regulatory Effectiveness Process/Initiatives                                          56                                                            4

   Performance Management                                                          46                                                                  4

   Clarity of Responsibilities                                                                               80                                        3

   Differing Professional Opinions [DPO] Program                           35                                                                      1

   Quality Focus                                                                        54                                                -1

   Diversity & Inclusion                                      Insufficient Items for Category Score Computation
                                                       0              25                50               75            100   -20   -10         0               10            20
                                                                                         Colored Difference Bars indicate a statistically significant difference
                                             Colored Difference Bars indicate a statistically significant difference




The historical comparison of results from 2002 to 2005 looks quite positive, with 16 of 18
categories statistically more favorable than the 2002 NRC results. Communication, which was
a high priority for the NRC since the last survey in 2002, is now the highest-scoring category in
this comparison, by 13* points. The NRC Mission and Strategic Plan also experienced a
double-digit improvement of 11* points. This score suggest the new NRC Strategic Plan
initiative was well received. Quality Focus is -1 point lower, but the difference is not statistically
significant.

It is rare in ISR’s experience that scores improve to this degree between survey iterations.
Efforts to follow-up on the survey results from 2002 appear to be successful and should be
implemented once again in 2005.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                                          Page 17
                                                                                 Office of the Inspector General
                                                 NRC Safety Culture and Climate Survey Executive Summary 2005

               COMPARISON OF NRC 2005 RESULTS WITH THE NRC 1998 RESULTS


  NRC Overall 2005 vs. NRC 1998 (N=1,696)

                                                              Nuclear Regulatory Commission
                                                 Category Scores Ranked By Difference From Benchmark
                                                         NRC OVERALL (2269) vs. NRC OVERALL 1998 (1696)

                                                                                     Favorable Scores                                         Differences From Benchmark

 Organizational Change                                                                                   66                                                                        21

 NRC Image                                                                                              64                                                                         21

 Engagement                                                                                                                  83                                                20
 Management Leadership                                                                                  64                                                                     20

 NRC Mission & Strategic Plan                                                                                            81                                                    19

 Communication                                                                                                          79                                                     19
 Training and Development                                                                                65                                                                   17

 Regulatory Effectiveness Process/Initiatives                                                     56                                                                          17

 Empowerment                                                                                            64                                                                14
 Working Relationships                                                                                             76                                                    13

 Continuous Improvement Commitment                                                                                 76                                                    12
 Supervision                                                                                                       75                                                    12

 Job Satisfaction                                                                                                            84                                      11

 Clarity of Responsibilities                                                                                            80                                           9
 Workload and Support                                                                                         70                                                     9

 Quality Focus                                                                                  54                                                               4

 Differing Professional Opinions [DPO] Program                                       39                                                                          4
 Performance Management                                             Insufficient Items for Category Score Computation

 Diversity & Inclusion                                              Insufficient Items for Category Score Computation


                                                            0                25                50                   75            100   -30        -15       0           15             30
                                                          Colored Difference Bars indicate a statistically significant difference




Compared to 1998, the NRC has improved in 17 categories, from Organizational Change
which is statistically more favorable in 2005 vs. 1998 by 21* points, to Differing Professional
Opinions (DPO) Program, which has improved by 4* points. Performance Management and
Diversity and Inclusion do not have sufficient items for a historical comparison.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                                            Page 18
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

                                       INTERNAL COMPARISONS

The following internal comparisons illustrate how various subgroups within NRC (i.e., regions,
offices, grade levels, job functions, job categories, and various tenures) vary at the category-
level average compared with NRC overall. Please note that in these charts, statistically
significant differences are indicated by colored (green or red) cells.

When reviewing any of the internal comparisons such as the graph on the next page, it should
be noted that while all respondents are included in the overall number (N=2,269), not all
employees provide a response to every coding question in the survey. For this reason, the
sum of all groups may not equal to the total NRC Overall combined group. Also, groups with
N<20 are included in the overall NRC population counts but are not broken out separately to
ensure confidentiality for each respondent.

OFFICE COMPARISONS

Examining the NRC data in terms of office distinctions allows an interesting picture to emerge.
In this first set of comparisons listed in the following graphic, Region I, Region II and Region IV
are statistically more favorable than the NRC Overall in several categories, including Clarity of
Responsibilities, Management Leadership and Regulatory Effectiveness Process and
Initiatives.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference        Page 19
                                                                            Office of the Inspector General
                                            NRC Safety Culture and Climate Survey Executive Summary 2005

                                                            Nuclear Regulatory Commission
                                                                 NRC OVERALL (2269)
                                                       Category Scores By OFFICE/DIVISION
    A.   NRC OVERALL (2269)                                                       F. RES (142)
    B.   NSIR (119)                                                               G. REGION I (186)
    C.   OCFO (68)                                                                H. REGION II (175)
    D.   OIG (43)                                                                 I. REGION III (178)
    E.   OIS (148)                                                                J. REGION IV (148)

                  Values displayed are based on Total Favorable            Colored Cells indicate a statistically significant difference
     Cat # Category                                                    A     B      C        D       E        F       G        H       I   J
         1   Clarity of Responsibilities                              80    -15     -13      9       -9      -12      7       8       -1   7
         2   Management Leadership                                    60    -12     -15      1       -9      -15      9      12       -1   10
         3   Supervision                                              75     -4     -10      4      -11      -13      7       7       0    6
         4   Working Relationships                                    76     -3     -13      9       -8      -14      5       4       2    4
         5   Empowerment                                              62     -6     -18      1       -7      -13      5       6       -1   7
         6   Communication                                            73     -6      -1      5       -1      -10      3       4       -2   2
         7   Workload and Support                                     66    -13      -4      8       -9      -12      4       8       1    6
         8   Training and Development                                 59     -5      -3      7       -4      -4       2       2       1    2
         9   Performance Management                                   46     -3      -4      15      -1      -9       4       3       3    6
     10      Job Satisfaction                                         84     -3      -4      1       -8      -6       5       5       2    6
     11      Engagement                                               80     -4      -8      1       -6      -8       6       5       -1   3
     12      NRC Mission & Strategic Plan                             61     -3      1       6       -2      -8       3       5       -3   4
     13      NRC Image                                                65     -6      -9      -9      -8      -7       5       8       4    7
     14      Organizational Change                                    66     -4      -4      1       -3      -10      5       6       1    5
     15      Continuous Improvement Commitment                        66     -2     -12      -2      -6      -12      5       6       2    5
     16      Quality Focus                                            54     -7      -9      5      -15      -13      8      10       4    8
     17      Regulatory Effectiveness Process/Initiatives             56     -7     -13     -18     -14      -7      13       9       7    9
     18      Diversity & Inclusion                                    79     2      -13      9       -2      -3       4       4       -4   1
     19      Differing Professional Opinions [DPO] Program            56     -4     -16      -8     -13      -8       3       3       3    12




Office of Nuclear Regulatory Research (RES), Office of Information Services (OIS), Office of
the Chief Financial Officer (OCFO) and Office of Nuclear Security and Incident Response
(NSIR) have a number of categories that are statistically less favorable than the NRC Overall,
with Research statistically lower in 14 of the19 categories. Caution should be exercised in
reviewing this data, as some of the apparent statistical unfavorable differences are caused by
a higher than norm Question Mark (Don’t Know/No Opinion) response by some employees in
these units.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                          Page 20
                                                                             Office of the Inspector General
                                             NRC Safety Culture and Climate Survey Executive Summary 2005


                                                             Nuclear Regulatory Commission
                                                                  NRC OVERALL (2269)
                                                            Category Scores By OFFICE/DIVISION
   A.   NRC OVERALL (2269)                                                           G. SECY/OPA/OCA/OCAA (28)
   B.   HEADQUARTERS OVERALL (1579)                                                  H. HR/SBCR/CSU (69)
   C.   CHAIRMAN'S OFFICE/COMMISSIONERS' OFFICES/OEDO (73)                           I. OGC (47)
   D.   OI (34)                                                                      J. ADM (57)
   E.   ASLBP (21)                                                                   K. NMSS (235)
   F.   ACRS/ACNW (22)                                                               L. NRR (434)
                 Values displayed are based on Total Favorable               Colored Cells indicate a statistically significant difference
    Cat # Category                                                      A      B      C        D        E       F       G        H        I    J     K    L
        1    Clarity of Responsibilities                                80     -2      12       4       1       0       13       -2      6    -4     3    -1
        2    Management Leadership                                      59     -3      21       1       7       0       13       -7      -2   -12    5    -4
        3    Supervision                                                75     -2      12      -3       1       -4       6       -6      -6   -5     8    -1
        4    Working Relationships                                      76     -2      12       6       4      -22       4       4       7    -6     3    0
        5    Empowerment                                                62     -2      18      -1      17       -1      11       -1      1    -11    4    -1
        6    Communication                                              73     -1      12      -1       7       1        8       -1      0    -5     3    -1
        7    Workload and Support                                       66     -2      11       7      14       2       10       -4      3    -12    3    -1
        8    Training and Development                                   59     -1       8       0       5       5       10       2       -3   -3     4    -3
        9    Performance Management                                     46     -2      12       8      14       4       12       -3      -3   -1     0    -6
        10   Job Satisfaction                                           84     -2      12      -23      2       -5       7       1       4     0     -1   -1
        11   Engagement                                                 80     -1      13      -12     10       0       10       -3      1    -7     4    -1
        12   NRC Mission & Strategic Plan                               61     -1      20      -7       2       9        7       -1      -1   -4     2    -4
        13   NRC Image                                                  65     -2      14      -13      6       -3       9       -5      -5   -5     3    -2
        14   Organizational Change                                      66     -2      10      -2       3       0        9       3       -6   -7     3    -4
        15   Continuous Improvement Commitment                          66     -2      16      -6       3       -7      -2       -2      0    -2     3    -1
        16   Quality Focus                                              54     -3      17       3       5      -10      14       -1      0    -10    5    -4
        17   Regulatory Effectiveness Process/Initiatives               56     -4      17      -16      -5      1        1      -12      -8   -14    6    -3
        18   Diversity & Inclusion                                      79     0       14      -5       5      -19       5       -4      3    -11    6    -2
        19   Differing Professional Opinions [DPO] Program              56     -2      17      -8       0       0        5       0       1    -12    3    0


Headquarters Overall (N=1,579) has little statistical difference to the NRC Overall. This is due
to the fact that Headquarters has a significant number of respondents as part of the overall
return rate.

Chairman’s Office/Commissioners’ Offices and Office of the Executive Director for Operations
(OEDO) are statistically more favorable in 16 of the 19 categories, with scores ranging from
21* points in Management Leadership to 12* points higher in Clarity of Responsibilities,
Supervision, Working Relationships, Communication, Performance Management and Job
Satisfaction.

Office of Investigations (OI) is -23* points lower in Job Satisfaction. Employees in this group
were less positive regarding the degree to which their work gives them personal satisfaction.

Advisory Committee on Reactor Safeguards (ACRS) and Advisory Committee on Nuclear
Waste (ACNW) have two categories that are statistically less positive than the NRC Overall:
Working Relationships -22* and Diversity and Inclusion -19*. Working Relationship has an
item regarding how well the people in the group get along together.



Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                                  Page 21
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

 On this question, the overall ACRS/ACNW score is -17* points below the NRC Overall. On
the Diversity and Inclusion Category, employees cited a less favorable response regarding
their immediate supervisor’s demonstrating the ability to work with people who are different
than him or her.

In Human Resources/Central Support Unit/Office of Small Business and Civil Rights, the
statistically lower response on Regulatory Effectiveness Process/Initiatives is due to a higher
than normal Question Mark response to questions in this category by respondents. The same
high Question Mark results in Regulatory Effectiveness Process/Initiatives are the cause for
Office of Administration (ADM) being -14 points lower than the NRC Overall in this category.

Office of Nuclear Reactor Regulation (NRR) is -6* points lower in the Performance
Management Category. Further investigation confirms that employees in NRR rated the
various characteristics of their performance appraisal discussion with their supervisor as
“Average” when assessing the employee’s career development, training, identification of
strengths and weaknesses, etc. Employees in other parts of the NRC typically rate their
performance appraisal discussion on these topics with their immediate supervisor as “Very
Good” or “Good.”

OFFICE HISTORICAL COMPARISONS

When reviewing the Office Historical Comparison to the 2002 survey results, a number of
groups have experienced statistical improvements while others have been able to maintain the
same level of results as the previous survey. Headquarters Overall had 13 categories with a
statistically significant improvement from 2002. Communication has improved by 13* points
while NRC Mission and Strategic Plan improved by 11* points.

The Management Leadership Category improved by 22* points since the 2002 survey in the
Chairman’s Office, Commissioners’ Offices and OEDO.

Human Resources/Central Support Unit/Office of Small Business and Civil Rights had their
biggest gain in the results for the NRC Mission and Strategic Plan Category, with an increase
of 16* points.

Office of the General Counsel (OGC) had three categories with a statistically significant
improvement. Communication improved by 23* points, Engagement by 19* points and NRC
Mission and Strategic Plan by 25* points.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference    Page 22
                                                                         Office of the Inspector General
                                         NRC Safety Culture and Climate Survey Executive Summary 2005

Office of Nuclear Material Safety and Safeguards (NMSS) had 14 categories that experienced
a statistical improvement. The categories range from Supervision with an 18* point
improvement to Job Satisfaction and Working Relationships with a 9* point improvement.

Office of Nuclear Reactor Regulation (NRR) also had 6 categories with statistical improvement
since the last survey. Communication, Job Satisfaction, Engagement, NRC Mission and
Strategic Plan, NRC Image and Continuous Improvement Commitment all showed statistically
significant improvements.


  Office/Region Historical (1 of 2)

      A.   Clarity of Responsibilities           H.     Training and Development                             O. Continuous Improvement
      B.   Management Leadership                 I.     Performance Management                                   Commitment
      C.   Supervision                           J.     Job Satisfaction                                     P. Quality Focus
      D.   Working Relationships                 K.     Engagement                                           Q. Regulatory Effectiveness
      E.   Empowerment                           L.     NRC Mission & Strategic Plan                             Process/Initiatives
      F.   Communication                         M.     NRC Image                                            R . Differing Professional Opinions
      G.   Workload & Support                    N.     Organizational Change                                    (DPO) Program

            Group              A     B       C   D        E       F      G       H       I      J       K      L      M    N    0     P     Q      R
  HQ (1579) vs. HQ 2002
                               3     8       7   5        9      13      5       9       3      7       9      11     9    4    10    -1    4      0
  (983)
  CHAIRMAN’S
  OFC/COMM. OFC/
  OEDO (73) vs.
                               9     22     12   7        14     10      10      8       6      9      10       6     5    3    11    2     1      -5
  CHAIRMAN’S
  OFC/COMM. OFC/
  OEDO 2002 (29)
  HR/SBCR/CSU (69) vs.
  HR/SBCR/CSU 2002             0     10      9   6        9      10      4       7       8     14      13      16     13   5    8     0     5      11
  (49)
  OGC (47) vs. OGC
                               5     15     12   17       16     23      7      17       4     10      19      25     14   4    19    -1    9      8
  2002 (39)
  ADM (57) vs. ADM
                               -4    -10    -4   -9       0      -4      -8      2      -6      -1     -2      -3     -1   -5   -1   -12   -2      -5
  2002 (36)
  NMSS (235) vs. NMSS
                               13    12     18   9        14     16      15     13       4      9      12      17     11   8    16   11     7      -2
  2002 (194)
  NRR (434) vs. NRR
                               5     6       2   3        6      13      2       6       1      9      10      10     9    2    9     -4    0      1
  2002 (299)
                                                      Colored cells indicate a statistically significant difference




The graphic on the next page will illustrate the changes since 2002 for the remainder of the
offices/regions.

Office of Information Services (OIS) has experience a significant improvement in their category
scores from 2002, with 16 categories improving statistically. The largest gains were in
Management Leadership, up by 28* points, Communication, up by 28* points and Training
and Development, up by 22* points.



Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                     Page 23
                                                                         Office of the Inspector General
                                         NRC Safety Culture and Climate Survey Executive Summary 2005

Region III also had a number of categories improve since the last survey. Twelve categories
are statistically above their 2002 scores.

Region I had statistical improvements in 8 categories. Region II had three categories
statistically improve while Region IV had 1.


  Office/Region Historical (2 of 2)

      A.   Clarity of Responsibilities               H.   Training and Development                           O. Continuous Improvement
      B.   Management Leadership                     I.   Performance Management                                 Commitment
      C.   Supervision                               J.   Job Satisfaction                                   P. Quality Focus
      D.   Working Relationships                     K.   Engagement                                         Q. Regulatory Effectiveness
      E.   Empowerment                               L.   NRC Mission & Strategic Plan                           Process/Initiatives
      F.   Communication                             M.   NRC Image                                          R . Differing Professional Opinions
      G.   Workload & Support                        N.   Organizational Change                                  (DPO) Program

           Group              A     B       C    D        E     F       G      H        I      J      K       L       M    N    0    P     Q       R
  OCFO (68) vs. OCFO
                              -3     8      14   0        9     16      8      10      0       0      11     13       10   10   5    9     2       -6
  2002 (58)

  OIS (148) vs. OICIO
                              11    28      16   17       21    28     15      22     15      15      17     16       18   17   18   4    18       14
  2002 (63)
  RES (142) vs. RES
                              -5     2      -2   4        3      8      -1      6      -1      8      10      5       11   2    6    -5    0       -4
  2002 (85)
  REGION I (186) vs.
                              7     18      12   8        13    17     10      11      5       6      16     16       7    7    13   -4    9       2
  REGION I 2002 (151)
  REGION II (175) vs.
                              8      6      10   4        8     11     11       9      4       8       8     11       8    5    7    3     4       -1
  REGION II 2002 (127)
  REGION III (178) vs.
                              1     12      6    14       12    13     12      10     11       5      10      8       14   12   9    6    12       11
  REGION III 2002 (142)
  REGION IV (148) vs.
                              -1     4      3    5        6      9      8       7      6       1       5      8       13   4    7    -1    1       2
  REGION IV 2002 (120)




                                                      Colored cells indicate a statistically significant difference




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                     Page 24
                                                                         Office of the Inspector General
                                         NRC Safety Culture and Climate Survey Executive Summary 2005

GRADE LEVEL COMPARISONS


  Category Results by Grade Level

               A.   NRC OVERALL (2269)                                                              E.   GG-14 (544)
               B.   GG-1 TO GG-10 (325)                                                             F.   GG-15 (580)
               C.   GG-11 TO GG-12 (180)                                                            G.   SENIOR LEVEL/ADMINISTRATIVE LAW JUDGE (54)
               D.   GG-13 (454)                                                                     H.   SES/EXECUTIVE LEVEL (125)

                Cat # Category                                                         A       B         C     D        E    F     G      H
                    1    Clarity of Responsibilities                                  80       4         0     -1       -4   0     1     13
                    2    Management Leadership                                        60       3         2     -1       -7   0     0     23
                    3    Supervision                                                  75       0         -2    0        -3   1     1     13
                    4    Working Relationships                                        76       0         -2    0        -5   2     -1    14
                    5    Empowerment                                                  62      -3         -2    -1       -6   3    11     23
                    6    Communication                                                73       3         5     0        -6   -1    4     14
                    7    Workload and Support                                         66       1         4     0        -4   -2    9     15
                    8    Training and Development                                     59      -1         2     -1       -6   1     6     21
                    9    Performance Management                                       46       2         1     0        -7   1     3     19
                    10   Job Satisfaction                                             84       0         1     -3       -4   3     9     11
                    11   Engagement                                                   80      -1         2     -1       -5   2     7     14
                    12   NRC Mission & Strategic Plan                                 61       1         -2    -1       -6   2     5     24
                    13   NRC Image                                                    65      -1         0     0        -5   0     3     20
                    14   Organizational Change                                        66      -6         -1    1        -4   2     5     20
                    15   Continuous Improvement Commitment                            66       8         0     -2       -6   0     -3    16
                    16   Quality Focus                                                54      -3         -4    1        -4   0    13     26
                    17   Regulatory Effectiveness Process/Initiatives                 56      -1         -3    0        -5   1     1     23
                    18   Diversity & Inclusion                                        79      -3         1     0        -5   2     6     15
                    19   Differing Professional Opinions [DPO] Program                56     -11         -8    -3       -4   7    12     30
                                                        Colored cells indicate a statistically significant difference




Another comparison of interest is grade level. The pattern demonstrated in the graphic above
is very typical of both government as well as private sector clients regardless of industry or
sector. The NRC data reveal statistically significantly highly positive responses from the
SES/Executive, the most senior layer of the Agency (the column to the extreme right in the
graphic). GG 11’s and 12’s, 13’s, 15’s and Senior Level Administrative Judges are in general
equal to NRC Overall. While these groups’ scores are generally more or less positive by 1 to
several points to the NRC Overall, they do not show statistically significant differences. The
minus -8* points for GG 11’s and 12’s in the Differing Professional Opinions (DPO) Program
is caused by a significant higher Question Mark response to questions in this category than in
the NRC Overall.

Employees in GG 1 to 10 have two categories that are statistically less favorable.
Organizational Change is less favorable due to a mix between both a High Question Mark
response to a number of questions in the category as well as some unfavorable responses to
other questions.


Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                         Page 25
                                                                 Office of the Inspector General
                                 NRC Safety Culture and Climate Survey Executive Summary 2005

An interesting population that deserves special comment is the GG-14 group. Across the
survey design focus groups, NRC employees mentioned GG-14 as possibly the highest
grade-level feasibly attainable. Many employees further mentioned that advancement from
GG-13 to GG-14 was perceived as the final stage of career mobility that could realistically be
expected given announcement about realigning grade levels in the NRC. These qualitative
findings have been supported with the quantitative analysis. Results for the GG-14’s indicate
statistically significantly negative responses and higher Question Mark responses on items
associated with Management Leadership, -7*, Performance Management, -7*, Empowerment,
-6*, Communication, -6*, Training and Development, -6*, NRC Mission & Strategic Plan, -6*,
and Continuous Improvement Commitment, -6*.

Thirty-one percent of the GG 14’s do not believe the leadership style of the NRC encourages
employees to give their best. Further, 35% indicated management does not trust the judgment
of employees at their level in the Agency.


  Category Results by Job Category

                     A. NRC OVERALL (2269)                                                              D. LINE MANAGEMENT (349)
                     B. SENIOR MANAGEMENT (56)                                                          E. NON-SUPERVISOR (1746)
                     C. MIDDLE MANAGEMENT (101)
                     Cat # Category                                                       A       B       C        D   E
                      1    Clarity of Responsibilities                                   80      16       13       3   -2
                      2    Management Leadership                                         60      27       21       5   -3
                      3    Supervision                                                   75      15       13       2   -2
                      4    Working Relationships                                         76      16       15       4   -2
                      5    Empowerment                                                   62      27       20       5   -3
                      6    Communication                                                 73      18       12       2   -2
                      7    Workload and Support                                          66      19       11       0   -1
                      8    Training and Development                                      59      23       19       3   -3
                      9    Performance Management                                        46      29       13       3   -2
                      10   Job Satisfaction                                              84      13       9        6   -2
                      11   Engagement                                                    80      17       11       6   -2
                      12   NRC Mission & Strategic Plan                                  61      34       20       7   -4
                      13   NRC Image                                                     65      23       17       4   -3
                      14   Organizational Change                                         66      21       19       6   -3
                      15   Continuous Improvement Commitment                             66      22       13       3   -2
                      16   Quality Focus                                                 54      30       20       5   -3
                      17   Regulatory Effectiveness Process/Initiatives                  56      23       20       4   -3
                      18   Diversity & Inclusion                                         79      15       16       2   -2
                      19   Differing Professional Opinions [DPO] Program                 56      32       26       8   -4

                                                   Colored cells indicate a statistically significant difference




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                  Page 26
                                                                 Office of the Inspector General
                                 NRC Safety Culture and Climate Survey Executive Summary 2005

JOB CATEGORY COMPARISONS

Employees were also requested to identify their Job Category in the Coding Section of the
survey. Respondents could choose from senior management, middle management, line
management, and non-supervisory classifications. The graphic on page 2 6 illustrates the result
that emerges. This pattern is particularly common among government and private sector
organizations alike. However, it remains interesting to see the sharp differences between
higher levels of management and other employees at the line management and non-
supervisory levels. The senior management and middle management deviate by double-digit
differences to the NRC Overall scores. While it is expected to see single-digit differences for
executives and high levels of management, it is unusual to see this large a significant
difference to the remaining employee population.


  Category Results by Job Function

                      A. NRC OVERALL (2269)                                                               D. LEGAL (55)
                      B. ADMINISTRATIVE/SUPPORT (783)                                                     E. SCIENTIFIC (311)
                      C. ENGINEERING (1057)
                                   Values displayed are based on Total Favorable                  Colored Cells indicate a statistically significant difference
                      Cat # Category                                                        A       B      C      D       E
                        1   Clarity of Responsibilities                                     80      -1       1      6      -2
                        2   Management Leadership                                           60      -2       2      -1     -2
                        3   Supervision                                                     75      -3       3      -4     -1
                        4   Working Relationships                                           76       0       1      5      -2
                        5   Empowerment                                                     62      -4       3      7      -2
                        6   Communication                                                   73       3       0      0      -3
                        7   Workload and Support                                            66      -1       1      6      -2
                        8   Training and Development                                        59      -1       1      -2     -1
                        9   Performance Management                                          46       4      -2      -3     -2
                       10   Job Satisfaction                                                84      -2       1      8      0
                       11   Engagement                                                      80      -2       1      4      -1
                       12   NRC Mission & Strategic Plan                                    61       1       1      -3     -2
                       13   NRC Image                                                       65      -3       2      -4     2
                       14   Organizational Change                                           66      -1       2      -5     0
                       15   Continuous Improvement Commitment                               66       1       0      -3     -2
                       16   Quality Focus                                                   54      -4       3      2      2
                       17   Regulatory Effectiveness Process/Initiatives                    56      -8       5      -9     5
                       18   Diversity & Inclusion                                           79      -2       2      6      -1
                       19   Differing Professional Opinions [DPO] Program                   56      -8       5      3      2


                                                    Colored cells indicate a statistically significant difference




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                       Page 27
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

JOB FUNCTION COMPARISONS

As noted in the graphic illustrating the Job Function Comparisons on page 27, there is very
little difference between the groups. Administrative Support employees are statistically less
favorable in Quality Focus, Regulatory Effectiveness Process/Initiatives and Differing
Professional Opinions (DPO) Program. In the case of the DPO Program this difference is
caused by a high Question Mark response to questions that refer to the program, information
about the Employee Concern Program and Open Door Policy.

However, when responding to questions regarding sacrificing the quality of their work to cut
costs, meet budget constraints or achieve a schedule or deadline, Administrative Support staff
responses indicate these conditions often compromise their focus on quality.

Administrative Support employees responded with a high Question Mark to questions
addressing Regulatory Effectiveness Process/Initiatives. For this reason, the category is
-8* points below the NRC Overall.

LENGTH OF SERVICE COMPARISONS

When employee opinion data are segmented according to length of service groups (see graph
on next page), there is little difference in scores. This is unusual when compared and
contrasted with private sector organizations, where employees with between 5- to 20-year of
service often respond unfavorable to the topics addressed in the survey compared to the rest
of their organization. The absence of significant variation in category results at the NRC
indicates that tenure is not a major determinate in how employees respond to the questions in
the survey.

The statistically significant unfavorable difference for the 1-year-of-service population is
caused by high Question Mark response to questions in the Performance Management,
Organizational Change and Differing Professional Opinions (DPO) Program. Employees with
less than 1 year of service are just too new to the NRC to respond to these questions. This is
very common in both government and private sector organizations.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference    Page 28
                                                                          Office of the Inspector General
                                          NRC Safety Culture and Climate Survey Executive Summary 2005



  Category Results by Length of Service
                                                      Category Scores By LENGTH OF SERVICE
        A.   NRC OVERALL (2269)                                                          E.   10 YEARS BUT LESS THAN 15 YEARS OF SERVICE (229)
        B.   LESS THAN 1 YEAR OF SERVICE (166)                                           F.   15 YEARS BUT LESS THAN 20 YEARS OF SERVICE (334)
        C.   1 YEAR BUT LESS THAN 5 YEARS OF SERVICE (556)                               G.   20 YEARS BUT LESS THAN 25 YEARS OF SERVICE (254)
        D.   5 YEARS BUT LESS THAN 10 YEARS OF SERVICE (273)                             H.   25 YEARS OR MORE OF SERVICE (446)

                Cat # Category                                                    A       B        C      D       E    F      G      H
                  1    Clarity of Responsibilities                               80       0       -1      2       -2   0      0      2
                  2    Management Leadership                                     60       4        1      2       -3   -1     0     -1
                  3    Supervision                                               75       2        1      2       -1   0      -2    -1
                  4    Working Relationships                                     76       0       -1      1       -4   0      0      3
                  5    Empowerment                                               62       2       -1      3       -4   0      -1     2
                  6    Communication                                             73       1        1      0       -4   0      -1     2
                  7    Workload and Support                                      66       3       -1      1       -3   0      -1     2
                  8    Training and Development                                  59       2       -1      0       -3   1      0      2
                  9    Performance Management                                    46      -15      -2      6       -2   2      0      3
                 10    Job Satisfaction                                          84       -1      -4      3       2    0      1      3
                 11    Engagement                                                80       4        0      4       -2   -1     -2     1
                 12    NRC Mission & Strategic Plan                              61       2        1      3       -4   -1     -2     0
                 13    NRC Image                                                 65       2       -2      2       -3   3      -1     0
                 14    Organizational Change                                     66      -13       1      4       -1   2      -1     1
                 15    Continuous Improvement Commitment                         66       2       -1      2       -3   0      0      0
                 16    Quality Focus                                             54       3       -1      4       -3   2      2     -3
                 17    Regulatory Effectiveness Process/Initiatives              56       -1       0      3       -3   1      3     -2
                 18    Diversity & Inclusion                                     79       5        4      1       -5   -4     -3     1
                 19    Differing Professional Opinions [DPO] Program             56      -14      -4      3       -2   3      5      5


                                                       Colored cells indicate a statistically significant difference


Job Satisfaction is -4* points lower for 1 year but less than 5 years of service respondents.
Fourteen percent of these employees indicated their work does not give them a personal
sense of accomplishment.

Another interesting finding is the lack of statistically significant favorable differences for
employees with 20 years of service or more. Generally in ISR’s experience, this group tends
to be more favorable than other groups of employees due to their length of service with the
organization. In the case of the NRC, this population is generally equal to the overall results.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                        Page 29
                                                                        Office of the Inspector General
                                        NRC Safety Culture and Climate Survey Executive Summary 2005

KEY DRIVER ANALYSIS

A key driver analysis (multiple regression) enables the identification of those critical areas that
drive employee engagement. In the case of the 2005 NRC Safety Culture and Climate Survey,
employee engagement was investigated. In order to determine the critical factors that
influence employee engagement, the Engagement Category that is designed to empirically
gauge employee engagement was utilized as the dependent variable in the key driver
analysis, while all other questions contained in the survey serve as the independent variables
and are regressed on the Engagement Index. The Engagement category is comprised of the
following items:


  Engagement: “Think” Items

                                                                                                                               Total
                                                                                                                              Unfavor-
                                                                       Total Favorable                    Diff       ?         able

 60. I believe strongly in the goals and objectives of A                                      87                     9            4
     this organization.
                                                       B 0

                                                      C 0

                                                      D                                  82                5*       12 *          6*
                                                          0
                                                          0
                                                          0
 67. I fully support the values for which this Agency A                                        91                    7            2
     stands.
                                                      B 0

                                                      C 0

                                                      D                                       87           4*        9*           4*
                                                              0
                                                              0

                                                          0       25          50         75         100
                                                                                                             * indicates a statistically significant difference
     A. NRC OVERALL (2269)                                                     C. U.S. RESEARCH & DEVELOPMENT NORM (9085)
     B. NRC OVERALL 2002 (1525)                                                D. U.S. NATIONAL NORM (154443)




    Ø I believe strongly in the goals and objectives of this organization. (Question 60)
    Ø I support the values for which this Agency stands. (Question 67)
Total Favorable in the results graphic is the combination of the “Agree”/”Tend to Agree”
responses. The Question Mark response is comprised of employees who do not know or do
not have an opinion to the question. Total Unfavorable are employees that responded with a
“Tend to Disagree” or “Disagree” response to the question.


Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                         Page 30
                                                                      Office of the Inspector General
                                      NRC Safety Culture and Climate Survey Executive Summary 2005



  Engagement: “Feel” Items

                                                                                                                               Total
                                                                                                                              Unfavor-
                                                                Total Favorable                           Diff       ?         able
 11. The longer you work for the NRC, the more you A                               72                               14          14
     feel a part of the Agency.
                                                   B                      59                              13 *      13          28 *
                                                  C                 48                                    24 *      18 *        34 *
                                                  D 0
                                                    0

 31. I would recommend the NRC as a good place    A
                                                       0                                     86                      7            7
     to work.
                                                  B
                                                    0                              72                     14 *      12 *        16 *
                                                  C                                  75                   11 *      12 *        13 *
                                                  D                                  76                   10 *      11 *        13 *

 50. I am proud to be associated with the NRC.         0
                                                  A                                            89                    7            4
                                                  B                                          85            4*        8            7*
                                                  C                                       83               6*       10 *          7*
                                                  D                                       84               5*       10 *          6*
                                                       0

                                                   0       25            50             75          100


                                                                                                             * indicates a statistically significant difference
     A. NRC OVERALL (2269)                                                    C. U.S. RESEARCH & DEVELOPMENT NORM (9085)
     B. NRC OVERALL 2002 (1525)                                               D. U.S. NATIONAL NORM (154443)




    Ø The longer you work for the NRC, the more you feel a part of the Agency. (Question 11)
    Ø I would recommend the NRC as a good place to work. (Question 31)
    Ø I am proud to be associated with the NRC. (Question 50)




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                         Page 31
                                                                           Office of the Inspector General
                                           NRC Safety Culture and Climate Survey Executive Summary 2005



  Engagement: “Act” Items

                                                                                                                                       Total
                                                                                                                                      Unfavor-
                                                                          Total Favorable                         Diff        ?        able

 73. The NRC energizes me to go the extra mile.          A                            60                                     16          24
                                                         B 0

                                                         C 0

                                                         D                            60                          -1         12 *        27 *
                                                                 0
                                                                 0
                                                             0       25          50              75         100
     (N) indicates 'Disagreeing' is the Favorable Response                                                                               Don't significant difference
                                                                                                                      * indicates a statistically
                                                                                No                                Diff       Yes         Know

 81. At the present time, are you seriously              A                                      74                           16          10
     considering leaving the NRC?
                                                         B                                 68                       6*       20 *        12 *

                     Unfavorable                         C                             64                         10 *       19 *        17 *
                      Response                           D                        58                              16 *       23 *        19 *
                                                                 0
                                                                 0
 82. Are you seriously considering leaving the NRC A 0                                  65                                   33           3
     because of your retirement?
                                                   B 0

                                                         C 0
                                                           0
                                                         D 0

                                                             0       25          50             75        100        * indicates a statistically significant difference
     (N) indicates
      A. NRC       'Disagreeing'
              OVERALL  (2269)    is the Favorable Response                            C. U.S. RESEARCH & DEVELOPMENT * indicates a statistically significant difference
                                                                                                                         NORM (9085)
     B. NRC OVERALL 2002 (1525)                                                       D. U.S. NATIONAL NORM (154443)




    Ø The NRC energizes me to go the extra mile. (Question 73)
    Ø At the present time are you seriously considering leaving the NRC? (Question 81)

    The results of the Key Driver Analysis are shown on the following page.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                                                  Page 32
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005



      Key Drivers of Engagement

                      KEY DRIVER CATEGORIES



                                MANAGEMENT
                                 LEADERSHIP                     .39




                                 CONTINUOUS                     .27
                                IMPROVEMENT                                        Engagement
                                 COMMITMENT



                                                                .23

                                                                              Variance Explained = 64%
                               TRAINING AND
                               DEVELOPMENT




                                   .XX = standardized regression coefficient indicating strength of association




The Total Variance Explained for this model is 64%, which is considered highly predictive of
the dependent variable Engagement. This indicates that 64% of all of the variation in
responses to Engagement can be accounted for by the responses to these three categories.
In interpreting this model, we can assume that individuals responding favorably to Engagement
Index items also responded favorably to the items determined to most influence Engagement.
Conversely, individuals responding unfavorably to Engagement Index items also tended to
respond unfavorably to the items determined to most influence Employee Engagement. It is
apparent that employee engagement at the NRC is highly affected by attitudes toward
Management Leadership, Continuous Improvement Commitment and Training and
Development.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                 Page 33
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005



  Key Drivers of Engagement

     23.   The management style at the              KEY DRIVER CATEGORIES
           NRC encourages employees
           to give their best.
                                                                                          .39
     20b. I have confidence in the                           Management
          decisions made by: The senior                       Leadership
          management team of the NRC


     34a. Employees are encouraged to
          communicate ideas to
          improve: Nuclear Safety                            Continuous                   .27
     35b. People in my work unit:                           Improvement                               Engagement
          Continually try to improve our                     Commitment
          performance

     48.   I believe I have the
           opportunity for personal                                                       .23
           development and growth in
           this organization                                  Training and
     66c. I think the NRC is doing a                          Development
          good job of: Retaining its
          most talented people

                                                                                       Variance Explained = 64%

                              .XX = standardized regression coefficient indicating strength of association



We continued the analysis to identify the actual questions driving engagement. Six items
emerged from the analysis:

   Ø   The management style at the NRC encourages employees to give their best
   Ø   I have confidence in the decisions made by: The senior management team of the NRC
   Ø   Employees are encouraged to communicate ideas to improve: Nuclear Safety
   Ø   People in my work unit: Continually try to improve our performance
   Ø   I believe I have the opportunity for personal development and growth in this organization
   Ø   I think the NRC is doing a good job of: Retaining its most talented people

Key driver analysis serves as an important tool in prioritizing issues for post-survey
follow-up activities.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                            Page 34
                                                                Office of the Inspector General
                                NRC Safety Culture and Climate Survey Executive Summary 2005

The table below shows the results of the key driver analysis for Employee Engagement
compared with NRC scores to the NRC 2002 results, U.S. Research & Development and the
U.S. National Norms.



  Key Driver Items
  Compared to Norms



      Category                                 Item                                 % Fav.     NRC       U.S.          U.S.
                                                                                               2002      Re-           Nat’l
                                                                                                        search
                                                                                                        & Dev
    Management     The management style at the NRC encourages employees
                                                                                      64        19*       10*           -2
    Leadership     to give their best.

    Management     I have confidence in the decisions made by: The senior
                                                                                      69        8*        21*           6*
    Leadership     management team of the NRC

    Continuous
                   Employees are encouraged to communicate ideas to
    Improvement                                                                       70        15*       n/a          n/a
                   improve: Nuclear Safety
    Commitment

    Continuous
                   People in my work unit: Continually try to improve our
    Improvement                                                                       80        7*         7*           2*
                   performance
    Commitment

    Training &     I believe I have the opportunity for personal development
                                                                                      70        13*        5*           7*
    Development    and growth in this organization

    Training &     I think the NRC is doing a good job of: Retaining its most
                                                                                      51        17*       22*           2*
    Development    talented people

                                                      Color and * indicate a statistically significant difference
                                                                  *indicates a statistically significant difference.


As can be seen above, all items in the analysis are statistically above the three benchmarks
with the exception of “Employees are encouraged to communicate ideas to improve: Nuclear
Safety,” which does not have norm comparisons for the U.S. Research and Development
Norm and U.S. National Norms, as this item is tailored for the NRC.

“The management style at the NRC encourages employees to give their best” is -2 points
lower than the U.S. National Norm and may be an area of focus for the future.

The importance of Employee Engagement cannot be underestimated. Engaged employees
have higher allegiance to an organization, are willing to expend extra effort, recommend the
Agency to others as a great place to work and are committed to staying with the NRC.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference                                      Page 35
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

                                               CONCLUSION

The 2005 NRC Safety Culture and Climate Survey results show significant improvements over
the 2002 results, with 16 of 18 categories statistically more favorable. The largest increases
were in Communication, NRC Mission and Strategic Plan, and Engagement. Compared to
the U.S. National Norm, the NRC is statistically more favorable in 12 of 16 categories.
Questions in the Differing Professional Opinions (DPO) Program and Regulatory
Effectiveness Processes/ Initiatives Categories are tailored for the NRC and are not in the
norm. Compared to the U.S. Research and Development Norm, the NRC is more favorable in
14 of 16 categories. Once again, questions in the Differing Professional Opinions (DPO)
Program and Regulatory Effectiveness Processes/Initiatives Categories are tailored for the
NRC and are not in the norm.

The most improved scores from 2002 are:

Ø    65c. “The NRC as a whole does an excellent job of keeping employees informed about
     matters affecting the Agency.” improved by 25* points.
Ø    40a. “My supervisor is taking steps to ensure our future staffing needs are met increased.”
     improved by 23* points.
Ø    71a. “I am sufficiently informed about NRC’s: Plans” improved by 20* points.
Ø    47. “The policies and decisions made by the Agency are adequately communicated to
     NRC employees.” Improved by 20* points.

The questions that had the highest decrease compared and contrasted to 2002 are:

Ø    53a. “We too often sacrifice the quality of our work in order to: Cut costs to meet budget
     constraints.” (N) decreased by -9* points.
Ø    14d. “I am frequently concerned about the following: Changes in federal government.” (N)
     decreased by -8* points.
Ø    54. “The amount of stress I experience in my job seriously reduces my effectiveness. “ (N)
     decreased by -7* points.

In reviewing the NRC Office and Regions results for 2005, Regions I, II, and IV have a number
of categories that experienced statistical improvement. Region III has maintained parity with
the NRC Overall scores and has no categories that are statistically above or below the
Agency.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference     Page 36
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

The Office of Information Services (OIS), Office of the Chief Financial Officer (OCFO), Office of
Nuclear Regulatory Research (RES) and Office of Nuclear Security and Incident Response
(NSIR) have statistically unfavorable category differences to the NRC Overall in several
categories. The results are influenced by both a higher “Question Mark” and unfavorable
response to a number of questions in the categories than experiences in the NRC Overall.
Other units have mixed results with one to two categories statistically unfavorable. This is due
to both high Question Mark and unfavorable responses to questions in these categories.
However, it is important to remember the benchmark for the comparisons, that is, the NRC
Overall scores are quite high compared to both historical results and external norms.

Overall, the NRC has a variety of strengths to build from. The results are very positive in
relation to a wide variety of norms and historical results for 2002. A number of units had
statistically significant category improvements or were able to maintain scores in comparison
to 2002.

The Office of Information Services (OIS) has experienced double-digit statistical improvement
in 16 of 18 categories compared to 2002. Office of the Chief Financial Officer (OCFO) and
Office of Nuclear Regulatory Research (RES) generally had improvements in their category
results vs. 2002, but the differences are not statistically significant. The Regions also
experienced improvements since 2002.

Region III had the greatest improvement since 2002, with 12 of 18 categories statistically
improved. Working Relationships and NRC Image both had a 14* point increase.

Based on the overall results, listed below are the key strengths to maintain and key areas for
improvement for the NRC overall. The criteria used in selecting the Key Strengths and
Opportunities for Improvement included historical movement and comparison to norms.

KEY STRENGTHS TO MAINTAIN

    1. The NRC Mission and Strategic Plan are clear to the vast majority of employees.

    2. In the Training and Development Category, employee recruitment, employee
       development, and retention are indicated as strengths. Training opportunities do not
       seem to be impacted by training, travel budget or staffing.

    3. Employees in the NRC are engaged, and the drivers of engagement score well above
       norm except for Question 23: “The management style at the NRC encourages
       employees to give their best.” which is -2 points below the U.S. National Norm.

    4. Regarding Management Leadership, perceptions of effective management have
       improved since 2002, as well as the scores for decision-making and communication.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference      Page 37
                                                               Office of the Inspector General
                               NRC Safety Culture and Climate Survey Executive Summary 2005

KEY OPPORTUNITIES FOR IMPROVEMENT

    1. Many employees are still uncertain as to the management support for the Differing
       Professional Opinions (DPO) Program. The highest degree of uncertainty about
       information related to the program comes from Administrative personnel and might be
       caused due to a lack of awareness about the program. There is also concern and
       uncertainty about the impact on one’s career for use of the program. Some employees
       are also unaware of alternative methods to raise concerns, such as the Non-
       Concurrence      Program,      Employee     Concerns        Program,   and   Senior
       Management/Commission Open Door Policy.

    2. It appears from the results that the Agency’s focus on the Regulatory Effectiveness
       Process, specifically questions related to risk-informed and performance-based
       regulation, has decreased since 2002. There is a significant increase in Question
       Mark response to questions in this category.

    3. The Continuous Improvement Commitment Category, a significant number of
       employees (49%) expressed concern over lack of knowledge transfer from retiring
       employees.

    4. Lastly, in the Diversity & Inclusion Category, 14% of employees indicated they felt
       management did not recognize and respect the value of human differences. Sixteen
       percent answered the question with a Question Mark response and 69% responded
       favorably.




Where indicated, an asterisk (*) indicates a Statistically Significant Difference    Page 38
                                     Office of the Inspector General
     NRC Safety Culture and Climate Survey Executive Summary 2005




                  APPENDIX A

DEFINITION OF RISK-INFORMED REGULATION




                                                           Page 39
                                                      Office of the Inspector General
                      NRC Safety Culture and Climate Survey Executive Summary 2005

              DEFINITION OF RISK-INFORMED REGULATION

Risk-informed regulation uses risk analysis, along with engineering studies, to focus
regulatory and licensee attention on design and operational issues in a manner that is
commensurate with the risk that the issue poses to public health and safety.

Incorporating risk analysis into regulatory decisions improves the regulatory process by
focusing NRC and licensee attention and activities on the areas of highest risk, thereby
reducing unnecessary burden on the licensee and increasing efficiency and effectiveness
in the use of agency resources.




                                                                               Page 40
